No. 21-___
IN THE
Supreme Court of the United States
_________
ISMAEL RIVERA
Petitioner,
v.
GLENNIS GELABERT-DE-PEGUERO; M. P.-R, MINOR; S.
P.-A, MINOR; MARIA CONFESOR-ROSARIO; NANCY
ORFELIA-ALVAREZ
Respondents.
_________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the First Circuit
_________
PETITION FOR WRIT OF CERTIORARI
_________
ÁNGEL A. VALENCIAAPONTE
Counsel of Record
Parques de San Ignacio
E-24, Fifth Street
San Juan, Puerto Rico
00921
(787) 245-0009
avalencia@aavalaw.com
Counsel for Petitioner

Questions Presented
1. Whether Police Officer Ismael Rivera was
correctly denied his entitlement to qualified
immunity?
2. Whether the District Court correctly applied
current doctrine on qualified immunity to its findings
of fact?

i

Parties to the Proceedings and Rule 29.6
Statement
Petitioner, a Defendant-Appelant in the court
below, is Ismael Rivera, a Police Captain.
Respondents, Plaintiffs-Appellees in the court
below, are Glennis Gelabert De-Peguero; M. P.-R, a
minor; S.P.-A, a minor and Maria Confesor-Rosario
and Nancy Orfelina-Alvarez.
Other parties to the original proceedings below
who are not Petitioner or Respondents include
Defendants Municipality of San Juan, former Mayor
Carmen Yulín Cruz, former Commissioner Guillermo
Calixto Rodriguez, Police Officer Edwin RosarioCordova, Police Officer Jermari Serrano-Borrero,
Police Officer Luis D. Vazquez-Crespo, Police Officer
Luis A. Burgos-Nieves and Police Officer Gilberto Y.
Febus-Perez.
Because Petitioner is not a corporation, a
corporate disclosure statement is not required under
Supreme Court Rule 29.6.

ii

Table of Contents
Questions Presented
Parties to Proceeding and Rule 29.6
Statement
Table of Cited Authorities
Opinions and Orders and Judgment Below
Basis for Jurisdiction
Statutes Involved
Statement of the Case

page
i
ii
iv
1
1
1
1

A. This proceeding involves a compelling
reason where a United States court of appeals
has sanctioned a departure by a United States
district court from applicable doctrine, thus
warranting exercise of the Supreme Court’s
supervisory power.
2
B. Based on the District Court’s Opinion
and Order’s Findings of Fact alone,
Captain Rivera was “at least entitled
to qualified immunity” under Kisela v.
Hughes and City of Escondido v. Emmons

3

Conclusion

13

Appendix

16

Order of the First Circuit Court of Appeals
denying Petitioner’s petition for rehearing
and petition for rehearing en banc issued
November 25, 2020
First Circuit Court of Appeals’ judgment

iii

16-17

dismissing Petitioner’s appeal dated
August 10, 2020

18-19

District Court for the District of Puerto Rico’s
Opinion and Order and Partial Judgment
dismissing Petitioner’s request for
summary judgment dated February 22, 2019 20-53
Table of Cited Authorities
Cases
City of Escondido v. Emmons,
139 S. Ct. 500 (2019) –

2,3,7,8,10,11,12,13

Johnson v. Jones, 515 U.S. 303 (1995)

7

Kisela v. Hughes, 138 S. Ct. 1148 (2018) 2,3,7,8,9,10
11,12,13
Mitchell v. Forsyth, 472 U.S. 511 (1985)
7
Federal Statutes
28 U.S.C. § 1254(1)

1

42 U.S.C. § 1983

1

Federal Rules
Federal Rule of Civil Procedure 56

1

Rule 10 (a) of the Rules of the Supreme Court

1

iv

Opinions and Orders and Judgment Below
The Order of the First Circuit Court of Appeals
denying Petitioner’s petition for rehearing and
petition for rehearing en banc issued on November 25,
2020 and is reproduced at Petitioner’s Appendix
below. The First Circuit Court of Appeals’ judgment
dismissing Petitioner’s appeal was entered on August
10, 2020 and is reproduced below at Petitioner’s
Appendix. The District Court for the District of Puerto
Rico’s Opinion and Order and Partial Judgment
dismissing Petitioner’s request for summary judgment
and denying the protection of qualified immunity was
issued on February 22, 2019 and is reproduced at
Petitioner’s Appendix. It was published at 2019 U.S.
LEXIS 229982; 2019 WL 8301063.
Basis for Jurisdiction
This Supreme Court has jurisdiction to review
on writ of certiorari the order in question under Rule
10 (a) of the Rules of the Supreme Court of the United
States because a United States Court of Appeals
sanctioned a departure of precedent by a lower court.
This Court has jurisdiction under 28 U.S.C. § 1254(1).
Statutes Involved
Alleged use of deadly force or use of excessive force
under 42 U.S.C. § 1983; Fourth Amendment of the
U.S. Constitution; Federal Rule of Civil Procedure 56,
Summary Judgment.
Statement of the Case

1

On February 24, 2019, Petitioner filed an
interlocutory appeal from the District Court for the
District of Puerto Rico’s Opinion and Order that
denied his request for summary judgment based on
qualified immunity. On March 19, the United States
Court of Appeals for the First Circuit ordered
Petitioner to show cause “why this appeal should not
be dismissed for lack of jurisdiction.” On August 10,
2020, a Court of Appeals’ Panel dismissed the appeal
finding that Appellant “has failed to establish a
jurisdictional basis for his appeal.” On August 24
Petitioner filed a Petition for Hearing En Banc
arguing that the proceeding involved a question of
exceptional importance. On November 25, the court of
appeals [Chief Judge Howard and Circuit Judges
Lynch, Thomson, Kayatta and Barron] denied the
petition for rehearing and petition for hearing en banc
stating that “a majority of the judges [did not vote]
that the case be heard en banc.”
A. This proceeding involves a compelling reason
where a United States court of appeals has
sanctioned a departure by a United States
district court from applicable doctrine, thus
warranting exercise of the Supreme Court’s
supervisory power.
The ruling of the District Court denying
Captain Rivera the protection of qualified immunity is
inconsistent with the United States Supreme Court
cases of Kisela v. Hughes, 138 S. Ct. 1148 (April 2,
2018) and City of Escondido v. Emmons, 139 S. Ct. 500
(January 7, 2019).
When the District Court issued its Opinion and
Order on February 22, 2019, denying Captain Rivera
his entitlement to qualified immunity, it did not

2

consider the United States Supreme Court recent
cases of Kisela v. Hughes and City of Escondido v.
Emmons. Both of these cases broadened and further
explained the entitlement to qualified immunity that
attaches to a police officer in a context like in the case
at hand. Had the District Court applied these cases’
doctrine to its Findings of Fact, Captain Rivera would
“at least [have been] entitled to qualified immunity.”
Kisela, at 1152. Thus, the District Court’s application
of the United States Supreme Court’s qualified
immunity doctrine to the present case is erroneous
and constitutes a grave injustice to Captain Rivera.
The protection of qualified immunity to Puerto Rico’s
police officers, in the same fashion as the doctrine is
applied to their counterparts in the mainland United
States, is a compelling reason to grant this writ of
certiorari.
B. Based on the District Court’s Opinion and
Order’s Findings of Fact alone, Captain Rivera
was “at least entitled to qualified immunity”
under Kisela v. Hughes and City of Escondido v.
Emmons
The District Court’s Opinion and Order contains
34 numbered Findings of Fact (Pages 4-8) in total. The
Opinion and Order prefaced the Findings with
introductory narrative that partially stated:
On November 8, 2013, municipal police
officers arrived at San Antonio Street in San
Juan, Puerto Rico in response to two (2) 911
calls reporting the presence of an aggressive
individual, later identified as Agustin Javier
Peguero (“Peguero”), who was attempting to
collect on a debt owed to his mother. The

3

situation quickly escalated. Other than a
baton, the officers were not equipped with nonlethal weapons that would allow them to
ensure their safety and, fearing for his life, one
officer shot Peguero in the chest.
The Opinion and Order contains 21 Findings of
Fact that are key to the determination of qualified
immunity. Those are reproduced below, as follows:
The November 8, 2013 Shooting
14. On November 8, 2013, the 911 Emergency
System received two (2) calls in the early
morning hours reporting the presence of an
aggressive individual—later identified as
Agustin Javier Peguero (“Peguero”)—in San
Antonio Street, San Juan, Puerto Rico.
15. The first caller informed the 911 operator
that “it seem[ed] they were beating someone;”
and that she did not “know if there is a fight
or what, because they were using foul
language and shouting.” The caller stated that
this was happening in front of her house,
located at 627 San Antonio Street.
16. The 911 Operator alerted the S.J.
Municipal Police about an “aggressive person”
in San Antonio Street. Then, the Command
Center for the S.J. Municipal Police contacted
the Barrio Obrero Precinct so that it would
respond to the call.
17. Thereafter, another individual, Desiado
Deseado Alejandro Larcen (“Larcen”), called
911, asking for police to be sent to his house at
620 San Antonio Street because “[t]here [were]
people breaking the door down here” and

4

“[t]hey [were] killing someone here, breaking
down the door to kill someone.” Larcen also
stated that “[a] guy became crazy, it seems,
because, I don’t know, he’s breaking the door
here;” and that he did not “know if he [was]
armed.”
18. According to the transcript of Larcen’s 911
call, Peguero could be heard shouting “we are
going in and if we get in we are going to kill
you;” and “[w]e are going to f*** you, mother
f*****.”
19. From the second floor of his house, Larcen
heard and saw an agitated Peguero hitting the
windows of the first floor of his house with a
bat. Peguero damaged four windows and
completely ripped out another.
20. Officer Serrano, Badge No. 1985, and
Officer Rosario, Badge No. 1931, were the first
officers to arrive at the scene.
21. Officer Rosario established a dialogue with
Peguero, who told the officers that the person
who lived in the residence owed his mother
approximately $4,000 and that he was not
leaving until he received payment. The
officers continued talking to Peguero, telling
him that this was not the correct way to collect
on a debt.
22. Then, Captain Rivera arrived at the scene.
At that point, Officers Serrano and Rosario
were positioned in the street across from 620
San Antonio Street, the house where Peguero
was located. Officers Serrano and Rosario
were pointing their weapons downwards at a
45- degree angle.
23. Captain Rivera, also holding his weapon at
a 45-degree angle, walked towards the

5

residence at 620 San Antonio Street and
observed Peguero hitting the windows with a
bat while cursing and yelling. Upon noticing
that Peguero “only ha[d] a bat,” Captain
Rivera put his weapon back in his holster;
identified himself; and asked Peguero to drop
the bat and “calm down.” Peguero continued
walking around Larcen’s residence, hitting the
windows, uttering expletives, and yelling.
24. On or around 3:11 A.M., Captain Rivera
positioned himself behind a parked vehicle
and requested reinforcements at their
location.
25. Shortly thereafter, Peguero jumped the
house’s fence and walked towards Captain
Rivera.
26. The officers repeatedly asked Peguero to
drop the bat.
27. Captain Rivera fired one shot, hitting
Peguero in the chest.
28. After falling face down to the ground and
while bleeding, Peguero was handcuffed with
his hands behind his back.
29. Captain Rivera requested an ambulance at
approximately 3:13 A.M.
30. According to the pre-hospitalization
attendance report, paramedics arrived at the
scene at 3:22 A.M.
31. Peguero was declared dead at 3:52 A.M.
32. Captain Rivera submitted a Use of Force
Report, dated November 8, 2013.
33.
The
Municipality
conducted
an
administrative investigation into Captain
Rivera’s use of force.
34. On March 24, 2017, the Puerto Rico
Secretary of Justice certified that the

6

Commonwealth’s Department of Justice had
administratively closed the investigation into
these events.
It must be noted that the District Court found that
“[p]laintiffs have similarly failed to put forth evidence
that Captain Rivera participated or was involved in
the decision to arrest and handcuff Peguero.” Opinion
and Order, Section II (B) Excessive force - Arrest
On these facts, the District Court denied Captain
Rivera’s defense of qualified immunity and his Motion
for Summary Judgment (Opinion and Order, page 12),
without an explanation of the law that cancelled
Captain Rivera’s qualified immunity. The District
Court in effect cancelled his right to the protection of
qualified immunity and forced Captain Rivera to face
trial. Notably, the District Court dismissed with
prejudice “[t]he § 1983 use of excessive force during an
arrest claim asserted against Ismael [Captain] Rivera
Gonzalez.” (Partial Judgment, item 2).
Qualified immunity is immunity from suit rather
than a mere defense to liability and is effectively lost
if a case is erroneously permitted to go to trial.
Mitchell v. Forsyth, 472 U.S. 511 (1985). Appellant is
mindful of the limitations imposed by Johnson v.
Jones, 515 U.S. 303 (1995). The instant Petition for
Writ of Certiorari addresses the application of Kisela
and City of Escondido against the Findings of Fact
determined by the District Court in its Opinion and
Order. Petitioner challenges the erroneous application
of that recent Supreme Court law to the findings of
fact determined by the District Court. Thus, Captain
Rivera respectfully submits that his position in the
Petition at hand pertains to a pure legal matter.
Accordingly, Petitioner submits that under the

7

applicable law, he had the right to appeal the District
Court’s Judgment denying qualified immunity and
summary judgment as an interlocutory appeal. If
Appellant faces trial in these circumstances, his
qualified immunity, as framed under Kisela and City
of Escondido, would be effectively lost.
Like the case at bar, Kisela and City of Escondido,
originated when police officers where denied the
protection of qualified immunity in the context of
motions for summary judgment. In Kisela, the District
Court granted summary judgment but the 9th Circuit
Court of Appeals reversed and after the Court of
Appeals denied a Petition En Banc, the United States
Supreme Court granted a Petition for Certiorari and
the case was reversed and remanded. In City of
Escondido, the District Court granted summary
judgment for two officers but the 9th Circuit Court of
Appeals reversed and remanded for trial with regard
to two officers. The Supreme Court, on certiorari,
reversed the Court of Appeals’ judgment, vacated
judgment as to one of the officers and remanded the
case to the Court of Appeals “to conduct the analysis
required” whether the other officer “is entitled to
qualified immunity.”
The facts in Kisela are strikingly similar to the
Gelabert (Peguero) case here. In Kisela, like here,
neighbors called 911 to report Hughes, who was acting
erratically and was armed with a large knife. Kisela at
1151, (here, the individual was armed with a bat,
Opinion and Order, Finding 23). Kisela, a Tucson,
Arizona officer, was one of three officers who arrived
at the scene. There (Hughes), like here (Peguero), was
told at least twice to drop the weapon (Findings 23, 26)
but did not. (In fact, Finding 26 reads that “[t]he
officers repeatedly asked Peguero to drop the bat.”)
When Hughes approached another woman, Police

8

Officer Kisela, fearing that Hughes would harm the
other woman, dropped to the ground to gain the line of
fire and shot Hughes four times, Id. (Captain Rivera
fired only once. Finding 27). There, like here (Finding
28), Hughes was handcuffed by the officers, Id. Here,
Captain Rivera did not handcuff the individual but
immediately called an ambulance (Finding 29). In
Kisela, less than a minute transpired between the
moment the police officer saw the other woman to the
time the shots were fired. Id. Here, two minutes
transpired between the moment Captain Rivera took
cover behind a vehicle to call command control and ask
for reinforcements to the time he called the ambulance
(Findings 24 and 29). In Kisela, the officer shot
Hughes when she approached the other woman with a
knife and ignored commands to drop the weapon (Id.).
Here, Captain Rivera “fired one shot” after “Peguero
jumped the house’s fence and walked towards Captain
Rivera”, and after “[t]he officers repeatedly asked
Peguero to drop the bat.” (Findings 25, 26 and 27).
These events must be weighed against the context of
the tumultuous, violent and threatening conduct
exhibited by Peguero (Findings 14, 15, 16, 17, 18 (“we
are going in and if we get in we are going to kill you”),
19 (“Peguero damaged four windows and completely
ripped out another”).
The Supreme Court stated that in Kisela, the issue
was “whether at the time of the shooting Kisela’s
actions violated clearly established law.” Id. 1150. The
Supreme Court reasoned that it need not decide
whether Kisela violated the Fourth Amendment “[f]or
even assuming a Fourth Amendment violation
occurred . . . on these facts Kisela was at least entitled
to qualified immunity.” Id. 1152. The Court also
restated that “police officers are entitled to qualified
immunity unless existing precedent ‘squarely governs’

9

the specific facts at issue.” Id. 1153. In the case at
hand, there was not such existing precedent
prohibiting the action that Captain Rivera took. In
explaining its reasoning, the Supreme Court
highlighted the particular facts in Kisela that: (a) the
police officer shot Hughes, although he was not in
danger, because he thought that Hughes was a threat
to the other woman, (b) that Hughes had an erratic
behavior, (c) had a large knife, (d) disregarded at least
two commands to drop the weapon, (e) was within
striking distance of the potential victim, (f) in events
that unfolded very rapidly, in less than a minute.
Kisela, 1153, 1154. All those elements are present in
the case of Captain Rivera, who acted to protect his life
after Peguero jumped the fence, bat in hand, and
walked towards him (Finding 25), while ignoring the
“officers [who] repeatedly asked Peguero to drop the
bat” (Finding 26), in the context of events that
unfolded very rapidly, in less that two minutes
(Findings 24 and 29).
The Supreme Court also restated that “the
calculus of reasonableness [in weighing use of force]
must embody allowance for the fact that police officers
are often forced to make split-second judgments -in
circumstances that are tense, uncertain, and rapidly
evolving- about the amount of force that is necessary
in a particular situation.” Kisela, 1152.
Like Kisela and the case at hand (Gelabert), in City
of Escondido the police officers responded to a
disturbance alerted through a 911 call. The officers
there were charged with alleged excessive use of force
in forcibly apprehending a man at a scene of a
domestic violence incident. The District Court granted
qualified immunity finding that “the law did not
clearly established that [the officer] could not take
down an arrestee in these circumstances.” Id. 502.

10

The Supreme Court restated the doctrine of Kisela
that “[q]ualified immunity attaches when an official’s
conduct does not violate clearly established statutory
or constitutional rights of which a reasonable person
would have known.” City of Escondido, at 503.
Reversing the Ninth Circuit in favor of recognizing
police officers’ entitlement to qualified immunity, the
Supreme Court determined that the Courts must
explain how a particular law prohibited an officer’s
actions in order to deny him or her the protection of
qualified immunity. The Court stated that in this task
“[w]hile there does not have to be a case directly on
point, existing precedent [to deny the officer qualified
immunity] must place the lawfulness of the particular
[action] beyond debate…” Id. 504. Thus, “[w]here
constitutional guidelines seem inapplicable or too
remote, it does not suffice for a court simply to state
that an officer may not use unreasonable and
excessive force, deny qualified immunity, and then
remit the case for a trial on the question of
reasonableness.” Kisela, at 1153.
In City of Escondido v. Emmons, the Supreme
Court chastised the Ninth Circuit Court of Appeals for
defining “the clearly established right at a high level
of generality by saying only that the ‘right to be free of
excessive force’ was clearly established.” Id. 503. The
Supreme Court questioned that “[w]ith the right
defined at that high level of generality, the Court of
Appeals then denied qualified immunity to the officers
and remanded the case for trial.” In the case at hand,
the District Court felt content to state “[f]irst, the
‘clearly established’ prong is easily satisfied.” And
then continued:
Excessive force claims are governed by the
Fourth
Amendment’s
‘objective

11

reasonableness’
standard.
The
Fourth
Amendment, for its part, protects citizens
against unreasonable force, searches and
seizures by the government. More specifically,
‘under clearly established law, the use of
deadly force is constitutional only if, at a
minimum, a suspect poses an immediate
threat to police officers and civilians.’
Accordingly, Peguero had a clearly established
right not to be subjected to deadly force unless
he posed an immediate threat to Captain
Rivera, the Police Defendants, or other
bystanders in the area.” Opinion and Order,
pages 10-11(internal citations omitted).
With that generality that Peguero had a clearly
established right not to be subjected to deadly force
under the Fourth Amendment, the District Court,
denied the Petitioner Police Officer his entitlement to
qualified immunity. The District Court failed to define
the clearly established right that Peguero had in the
context of his overall extemporaneous violent conduct
that caused multiple 911 calls from different persons,
the threats of Peguero to break into the tenant’s house
and kill him, the rage he displayed during and after
the police showed up, his jumping over the fence bat
in hand, his immediate walking towards Captain
Rivera -bat in hand- and his stubborn refusal to drop
the bat while walking towards the Petitioner. That is
the context wherein the District Court had to define
Peguero’s “clearly established right” as opposed to a
generality about Fourth Amendment protection. The
District Court failed to adequately and properly do
that analysis. The District Court failed to explain why
in these exigent circumstances, when Petitioner had
no non-lethal tools at hand, the Court could properly

12

deny to Petitioner his entitlement to qualified
immunity.
Conclusion
Petitioner is a hard-working police officer with
an unblemished record, who rose to the rank of
Captain with great sacrifice. Notwithstanding that
there are more pieces of evidence that support the
proposition that Petitioner is entitled to qualified
immunity, Petitioner submits that the District Court’s
Findings of Fact, standing alone, support his position
that he should not be deprived of his qualified
immunity protection. The Findings of Fact in the
Honorable Court’s Opinion and Order are revealing.
Captain Rivera was called upon to face a tense and
explosive situation of an individual who was enraged
due to circumstances not created or provoked by
Captain Rivera. Captain Rivera established oral
communication with the person (Peguero), identified
himself as a high-ranking officer, invited Peguero to
reason, to depose his anger and to talk. Captain
Rivera tried to de-escalate the tense situation to no
avail. When Peguero did not respond to reason,
Captain Rivera took cover behind a vehicle parked on
the street and called command and control for
reinforcements. At that moment, an enraged Peguero
jumped the fence in the house where he was trying to
break in and had damaged or destroyed the windows,
and walked towards Captain Rivera, bat in hand.
Peguero disobeyed multiple commands by all the
officers to drop the bat. When Peguero aimed his
wrath and walked towards Captain Rivera, Captain
Rivera, as the District Court correctly prefaced its
Opinion and Order, “fearing for his life”, fired one shot
with unfortunate consequences.

13

Captain Rivera’s predicament was not different
from that of Police Officer Andrew Kisela in Arizona.
In fact, Captain Rivera acted to defend his life by firing
one shot. Kisela acted to defend a third person’s life
that he thought was in grave danger, and fired not one,
but four shots. The facts that evolved around Captain
Rivera are strikingly similar to those that Officer
Kisela faced. However, the Supreme Court protected
Officer Kisela’s right to qualified immunity because
there was no law that prohibited officer Kisela from
acting the way he did. In fact, the Supreme Court
stated that, regardless of a Fourth Amendment
violation or not, in those exigent circumstances where
the police officer had to do a split-second decision,
“Kisela was at least entitled to qualified immunity.”
Kisela at 1152. The District Court did not adequately
explain the statute that prohibited Captain Rivera
from defending himself. According to case law, such
statute cannot be defined in general terms. Two
strikingly similar situations, two police officers
presumptively covered by the same Constitution, the
same set of protections and both entitled to the
protection of qualified immunity. One Police Officer in
Arizona –Andrew Kisela- recognized his entitlement
to qualified immunity. The other, Captain Ismael
Rivera, from Puerto Rico, denied his entitlement to
qualified immunity and forced to face trial. Petitioner
also submits that the application of the qualified
immunity doctrine should not be cancelled or modified
just because the result of the Police Officer’s action
was an unfortunate death. The doctrine does not
change because of the result. Rather, it must be
uniformly applied.
Petitioner respectfully submits that both
referenced Supreme Court cases, Kisela and City of
Escondido had issued by the United States Supreme

14

Court recently from the time of issuance of the
Opinion and Order by the District Court. Kisela
issued in 2018, about a year before and City of
Escondido issued in January 2019, just a month before
the Opinion and Order. It is very likely that the
Honorable District Court did not have these holdings
before it when the Opinion and Order issued.
Accordingly, it is probably fair to remand the matter
before the District Court to allow the Court to re-issue
its Opinion and Order considering these two Supreme
Court landmarks on the issue of qualified immunity.
Wherefore,
Captain
Rivera
respectfully
requests that the Honorable United States Supreme
Court either: (a) grant the Petitioner’s Motion for
Summary Judgment filed before the District Court
and Petitioner’s request for the protection of qualified
immunity, or (b) remand the case to the District Court
for a new determination on whether, based on Kisela
v. Hughes and City of Escondido v. Emmons and the
District Court’s Findings of Fact, Captain Rivera
should be recognized his entitlement to qualified
immunity and summary judgment.
Respectfully Submitted,
s/Ángel A. Valencia-Aponte
Counsel for Petitioner
Parques de San Ignacio
E-24, Fifth Street
San Juan, Puerto Rico
00921
(787)245-0009
avalencia@aavalaw.com

15

APPENDIX
United States Court of Appeals
For the First Circuit
No. 19-1221
Glennis Gelabert De-Peguero; M.P.R.,
Minor; S.P.A., Minor; Maria Confesor
Rosario; Nancy Orfelina-Alvarez,
Plaintiffs - Appellees,
v.
Ismael Rivera, Police Officer,
Defendant - Appellant,
Municipality of San Juan: Carmen Yulin
Cruz Soto, Mayor of San Juan; Guillermo
Calixto -Rodriguez, Commissioner of the Municipality
of San Juan Police; John Does, 1-100
Conjugal Partnership Doe-Cruz; Conjugal
Partnership Calixto-Doe; Edwin RosarioCordova, San Juan Municipal Police Officer; Jermari
Serrano-Borrero, San Juan Municipal Police Officer;
Luis D. Vazquez-Crespo, San Juan Municipal Police
Officer; Luis A. Burgos Nieves, San Juan Municipal
Police Officer; Gilberto Y. Febus-Perez, San Juan
Municipal Police Officer
Defendants
Before
Howard, Chief Judge
Lynch, Thompson, Kayatta
And Barron, Circuit Judges
Entered: November 25, 2020
The petition for rehearing having been denied by the
panel of judges who decided the case, and the

16

petition for rehearing en banc having been
submitted to the active judges of this court and a
majority of the judges not having voted that the case
be heard en banc, it is ordered that the petition for
rehearing and the petition for rehearing en banc be
denied.
By the Court:
Maria R. Hamilton, Clerk

17

United States Court of Appeals
For the First Circuit
No. 19-1221
Glennis Gelabert De-Peguero; M.P.R.,
Minor; S.P.A., Minor; Maria Confesor
Rosario; Nancy Orfelina-Alvarez,
Plaintiffs - Appellees,
v.
Ismael Rivera, Police Officer,
Defendant - Appellant,
Municipality of San Juan: Carmen Yulin
Cruz Soto, Mayor of San Juan; Guillermo
Calixto -Rodriguez, Commissioner of the Municipality
of San Juan Police; John Does, 1-100
Conjugal Partnership Doe-Cruz; Conjugal
Partnership Calixto-Doe; Edwin RosarioCordova, San Juan Municipal Police Officer; Jermari
Serrano-Borrero, San Juan Municipal Police Officer;
Luis D. Vazquez-Crespo, San Juan Municipal Police
Officer; Luis A. Burgos Nieves, San Juan Municipal
Police Officer; Gilberto Y. Febus-Perez, San Juan
Municipal Police Officer
Defendants
Before
Thompson, Kayatta and Barron
Circuit Judges
Judgment
Entered: August 10, 2020
In response to this court’s order to show cause
why this interlocutory appeal from an order denying
summary judgment based on qualified immunity

18

should not be dismissed for lack of jurisdiction,
defendant-appellant Ismael Rivera states that he
intends to argue that the district court erred in
failing to consider whether plaintiff’s version of
events was “blatantly contradicted” by record
evidence, as required under Scott v. Harris, 550 U.S.
372, 380 (2007). But the district court’s Opinion and
Order makes clear that it reviewed the evidence
Rivera cited and concluded that it was insufficient to
conclusively refute certain witness testimony Rivera
disputes. Because it appears that Rivera is, in
essence, asking this court to review the district
court’s determination that the record evidence was
sufficient to support a jury’s finding on an issue of
fact, he has failed to establish a jurisdictional basis
for this appeal. See Johnson v. Jones, 515 U.S. 304,
311 (1995); Begin v. Drouin, 908 F.3d 829, 834 (1st
Cir. 2018). Accordingly, the appeal is dismissed.
By the Court:
Maria R. Hamilton, Clerk

19

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
GLENNIS GELABERT DE-PEGUERO, et al., Civil
No. 14-1812 (JAG)
Plaintiffs,
v.
MUNICIPALITY OF SAN JUAN, et al.,
Defendants.
OPINION AND ORDER
GARCIA GREGORY, D.J.
On November 8, 2013, municipal police officers
arrived at San Antonio Street in San Juan, Puerto
Rico in response to two (2) 911 calls reporting the
presence of an aggressive individual, later identified
as Agustin Javier Peguero (“Peguero”), who was
attempting to collect on a debt owed to his mother.
The situation quickly escalated. Other than a baton,
the officers were not equipped with non-lethal
weapons that would allow them to ensure their
safety and, fearing for his life, one officer shot
Peguero in the chest. Peguero fell to the ground,
bleeding. He was then handcuffed and left lying on
the street while the ambulance arrived. Peguero died
at the scene. Based on these tragic events, Plaintiffs
filed suit under 42 U.S.C. § 1983 alleging (i) use of
deadly force, (ii) use of excessive force during an
arrest, and (iii) failure to provide medical assistance.
Docket No. 68.
Pending before the Court are the Motions for
Summary Judgment filed by Defendants Captain

20

Ismael Rivera Gonzalez (“Captain Rivera”), Docket
No. 264; Hon. Carmen Yulin Cruz Soto, Mayor of the
Municipality of San Juan (the “Mayor”), Docket No.
266; former Commissioner of the San Juan Municipal
Police (“S.J. Municipal Police”), Guillermo Calixto
Rodriguez (the “Commissioner”), Docket No. 267; the
Municipality of San Juan (the “Municipality”),
Docket No. [2] 268; S.J. Municipal Police Officer
Jermary Serrano (“Officer Serrano”), id.; and S.J.
Municipal Police Officer Edwin Rosario (“Officer
Rosario”), id.1Plaintiffs Glennis Gelabert de Peguero,
Stacy Peguero Alvarez, and Melvin Peguero Rosario
(“Plaintiffs”) opposed, Docket No. 273; and
Defendants thereafter replied, Docket Nos. 288; 292;
294. After considering the Parties’ respective
positions and the applicable law, the Court hereby
GRANTS IN PART and DENIES IN PART
Defendants’ Motions for Summary Judgment.
STANDARD OF REVIEW
The Court will grant a motion for summary
judgment if the pleadings, depositions, answers to
interrogatories, and admissions on file, together with
Plaintiffs’ Second Amended Complaint (“Complaint”) also
included as co-Defendants the following S.J. Municipal Police
Officers: Luis D. Vasquez Crespo, Luis A. Burgos Nieves,
Gilberto Y. Febus Perez, and John Does 1-100. Docket No. 68 at
2, 5. The Complaint alleges the same claims against these coDefendants as those asserted against Officers Serrano and
Rosario. As such, the Court will refer to these co-Defendants,
including Officers Serrano and Rosario, as the “Police
Defendants.” The Mayor and the Commissioner, on the other
hand, will be jointly addressed as the “Supervisor Defendants.”
1

21

the affidavits if any, show that there is no genuine
issue of material fact and that the moving party is
entitled to judgment as a matter of law. See Fed. R.
Civ. P. 56(a). Under this standard, a fact is in
“genuine” dispute if it could be resolved in favor of
either party; and “material” if it potentially affects
the outcome of the case. Calero-Cerezo v. United
States DOJ, 355 F.3d 6, 19 (1st Cir. 2004) (citing
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 24850, 106 S. Ct. 2505, 91 L. Ed. 2d 202 (1986)).
The party requesting summary disposition
bears the burden of showing the absence of a genuine
issue of material fact. Celotex Corp. v. Catrett, 477
U.S. 317, 323, 106 S. Ct. 2548, 91 L. Ed. 2d 265
(1986). “Once the moving party has properly
supported [its] motion for summary judgment, the
burden shifts to the nonmoving party. “SantiagoRamos v. Centennial P.R. Wireless Corp., 217 F.3d
46, 52 (1st Cir. 2000) [3] (citation omitted). The nonmovant must then demonstrate through submissions
of evidentiary quality . . . that a trial worthy issue
persists. “Iverson v. City of Bos., 452 F.3d 94, 98 (1st
Cir. 2006) (citations omitted).
In evaluating a motion for summary judgment,
the Court must view the entire record “in the light
most hospitable to the party opposing summary
judgment, indulging all reasonable inferences in that
party’s favor.” Winslow v. Aroostook Cty., 736 F.3d
23, 29 (1st Cir. 2013) (citation omitted). The Court,
however, may safely ignore “conclusory allegations,
improbable inferences, and unsupported
speculation.” Medina-Rivera v. MVM, Inc., 713 F.3d
132, 134 (1st Cir. 2013) (citation omitted). And it
cannot make credibility determinations or weigh the
evidence, as these are jury functions and not those of

22

a judge. See Anderson, 477 U.S. at 255; GarciaGonzalez v. Puig-Morales, 761 F.3d 81, 99 (1st Cir.
2014)(citations omitted).
FINDINGS OF FACT
The Court makes the following factual findings
based on Defendants’ Statements of Uncontested
Facts and supporting documentation.2 In accordance
with Local Rule 56(e), the Court only credits facts
properly supported by specific and accurate record
citations. It also disregards all argumentative and
conclusory allegations, speculations, and improbable
inferences disguised as facts. See Forestier Fradera
v. Municipality of Mayaguez, 440 F.3d 17, 21 (1st
Cir. 2006); Medina-Munoz v. R.J. Reynolds Tobacco
Co., 896 F.2d 5, 8 (1st Cir. 1990).
[4] Captain Rivera
1. Captain Rivera joined the S.J. Municipal Police in
1992. As of November 8, 2013, he held the rank of
“Captain” within the S.J. Municipal Police.
2. As of November 12, 2013, Captain Rivera had no
administrative investigations pending; no history of
administrative or criminal complaints, except for an
official vehicle accident reported in 2007 that was
Plaintiffs failed to timely comply with Local Rule 56(c) because
they did not submit a separate statement admitting, denying, or
qualifying any fact in Defendants’ Statements of Uncontested
Facts. Accordingly, the Court deems the facts therein to be
undisputed insofar as they find support in the record. See Fed.
R. Civ. P. 56(e); Local Rule 56(e).
2

23

ultimately dismissed; and no disciplinary actions
during his career as a S.J. Municipal Police Officer.
3. Captain Rivera’s performance evaluations for the
years 2010-2012 were satisfactory.
4. As of November 8, 2013, Captain Rivera had
completed the required training for his rank and
obtained the required annual shooting certifications.
Officer Serrano
5. As of November 8, 2013, Officer Serrano had
worked as a S.J. Municipal Police Officer for
approximately four (4) years.
6. As of November 12, 2013, Officer Serrano had no
history of administrative or criminal complaints
other than an incident whereby she made impolite
comments to an arrestee.
Officer Rosario
7. As of November 8, 2013, Officer Rosario had
worked as a S.J. Municipal Police Officer for
approximately five (5) years.
8. Prior to November 12, 2013, Officer Rosario had no
pending administrative investigations.
Municipality’s Policies and Regulations
9. S.J. Municipal Police Officers must complete the
basic training courses offered by the University
College of Criminal Justice of Puerto Rico before
being certified as municipal police officers. P.R. Laws
Ann. tit. 21, § 1066(p). The course offerings address

24

topics such [5] as force management and control,
regulations and standards for use of force, police
misconduct, human rights, and civil rights. Id.
10. The S.J. Municipal Police Regulation requires,
inter alia, that municipal police officers comply with
all laws and ordinances; protect the life and the
property of all citizens; be diligent in the compliance
of their duty; act at all times in an equitable,
impartial, and just manner; observe an exemplary
conduct at all times; respect and protect the civil
rights of the citizen; and take all necessary measures
to guarantee the security and protection of all
persons under their custody. It also provides training
programs for municipal police officers through the
Training and Education Institute. Moreover, the
Regulation considers the excessive use of force to be a
serious violation subject to disciplinary measures.
11. The Municipality’s Manual on Use and Handling
of Firearms describes the different levels of use of
force, as well as the instances where a municipal
police officer may use a particular level of force and
the extent to which he may do so. It states that
“when using any level of force to respond to a violent
threat, the response must be to repel the attack
nonviolently.”
12. Per Internal Rule of June 2007-01, S.J. Municipal
Police Officers who use any kind of force while on
duty must prepare a report on the use of force;
failure to do so is considered a serious violation.
13. Per the S.J. Municipal Police General Order No.
2006-05, S.J. Municipal Police Officers must
regularly complete firearm shooting training.
The November 8, 2013 Shooting

25

14. On November 8, 2013, the 911 Emergency
System received two (2) calls in the early morning
hours reporting the presence of an aggressive
individual—later identified as Agustin Javier
Peguero (“Peguero”)—in San Antonio Street, San
Juan, Puerto Rico.[6]
15. The first caller informed the 911 operator that “it
seem[ed] they were beating someone,” and that she
did not “know if there is a fight or what, because they
were using foul language and shouting.” The caller
stated that this was happening in front of her house,
located at 627 San Antonio Street.
16. The 911 Operator alerted the S.J. Municipal
Police about an “aggressive person” in San Antonio
Street. Then, the Command Center for the S.J.
Municipal Police contacted the Barrio Obrero
Precinct so that it would respond to the call.
17. Thereafter, another individual, Desiado Deseado
Alejandro Larcen (“Larcen”), called 911, asking for
police to be sent to his house at 620 San Antonio
Street because “[t]here [were] people breaking the
door down here” and “[t]hey [were] killing someone
here, breaking down the door to kill someone.”
Larcen also stated that “[a] guy became crazy, it
seems, because, I don’t know, he’s breaking the door
here;” and that he did not “know if he [was] armed.”
18. According to the transcript of Larcen’s 911 call,
Peguero could be heard shouting “we are going in
and if we get in we are going to kill you” and “[w]e
are going to f*** you, mother f*****.”
19. From the second floor of his house, Larcen heard
and saw an agitated Peguero hitting the windows of
the first floor of his house with a bat. Peguero
damaged four windows and completely ripped out
another.

26

20. Officer Serrano, Badge No. 1985, and Officer
Rosario, Badge No. 1931, were the first officers to
arrive at the scene.
21. Officer Rosario established a dialogue with
Peguero, who told the officers that the person who
lived in the residence owed his mother approximately
$4,000 and that he was not [7]leaving until he
received payment. The officers continued talking to
Peguero, telling him that this was not the correct
way to collect on a debt.
22. Then, Captain Rivera arrived at the scene. At
that point, Officers Serrano and Rosario were
positioned in the street across from 620 San Antonio
Street, the house where Peguero was located.
Officers Serrano and Rosario were pointing their
weapons downwards at a 45-degree angle.
23. Captain Rivera, also holding his weapon at a 45degree angle, walked towards the residence at 620
San Antonio Street and observed Peguero hitting the
windows with a bat while cursing and yelling. Upon
noticing that Peguero “only ha[d] a bat,” Captain
Rivera put his weapon back in his holster; identified
himself; and asked Peguero to drop the bat and “calm
down.” Peguero continued walking around Larcen’s
residence, hitting the windows, uttering expletives,
and yelling.
24. On or around 3:11 A.M., Captain Rivera
positioned himself behind a parked vehicle and
requested reinforcements at their location.
25. Shortly thereafter, Peguero jumped the house’s
fence and walked towards Captain Rivera.
26. The officers repeatedly asked Peguero to drop the
bat.
27. Captain Rivera fired one shot, hitting Peguero in
the chest.

27

28. After falling face down to the ground and while
bleeding, Peguero was handcuffed with his hands
behind his back.
29. Captain Rivera requested an ambulance at
approximately 3:13 A.M.
30. According to the pre-hospitalization attendance
report, paramedics arrived at the scene at 3:22 A.M.
31. Peguero was declared dead at 3:52 A.M. [8]
32. Captain Rivera submitted a Use of Force Report,
dated November 8, 2013.
33. The Municipality conducted an administrative
investigation into Captain Rivera’s use of force.
34. On March 24, 2017, the Puerto Rico Secretary of
Justice certified that the Commonwealth’s
Department of Justice had administratively closed
the investigation into these events.
ANALYSIS
Captain Rivera, Officer Serrano, Officer Rosario, the
Supervisor Defendants, and the Municipality move
for summary judgment as to the claims asserted
against them. The Court addresses each argument
individually, starting with the federal claims and the
qualified immunity defenses before turning to the
state law claims.
I. The Section 1983 Claims (Second Cause of Action)
Section 1983 “is not itself a source of substantive
rights, but merely provides a method for vindicating
federal rights elsewhere conferred. “Graham v.
Connor, 490 U.S. 386, 393-94, 109 S. Ct. 1865, 104 L.
Ed. 2d 443

28

(1989) (internal quotation marks and citation
omitted). To prevail in a § 1983 suit, a plaintiff must
establish that the defendant, acting under color of
state law, deprived him of a federal right. Santiago v.
Puerto Rico, 655 F.3d 61, 68 (1st Cir. 2011) (citation
omitted). A defendant has acted under color of state
law if he has abused the power “possessed by virtue
of state law and made possible only because the
wrongdoer is clothed with the authority of state law.”
West v. Atkins, 487 U.S. 42, 49-50, 108 S. Ct. 2250,
101 L. Ed. 2d 40 (1988) (citation omitted). Further, to
establish the deprivation of a federal right, “plaintiffs
must show that the defendants’ conduct was the
cause in fact of the alleged deprivation.” RodriguezCirilo v. Garcia, 115 F.3d 50, 52 (1st Cir. 1997)
(citation omitted).[9]
In this case, Defendants do not dispute that
they acted under color of state law. Instead,
Defendants argue that the Court should enter
summary judgment in their favor because (i) they are
entitled to qualified immunity; and (ii)
Plaintiffs have failed to present cognizable claims.
The Court first addresses the arguments raised by
Captain Rivera, Officer Serrano, and Officer Rosario
as to the federal causes of action. Then, it addresses
the supervisory liability and municipal liability
claims asserted against the Supervisor Defendants
and the Municipality. The Court concludes with the
analysis of the state law causes of action.
II. Qualified Immunity
Qualified immunity shields “[a] government
official sued under § 1983 . . . unless the official
violated a statutory or constitutional right that was

29

clearly established at the time of the challenged
conduct.” Carroll v. Carman, 574 U.S. 13, 135 S. Ct.
348, 350, 190 L. Ed. 2d 311 (2014) (citing Ashcroft v.
al—Kidd, 563 U.S. 731, 735, 131 S. Ct. 2074, 179 L.
Ed. 2d 1149 (2011)). In this way, the “doctrine gives
government officials breathing room to make
reasonable but mistaken judgments, and protects all
but the plainly incompetent or those who knowingly
violate the law.” Id. (internal quotation marks and
citation omitted). To this effect, qualified immunity is
governed by a two-part inquiry:
First, we inquire whether the facts, taken most
favorably to the party opposing summary
judgment, make out a constitutional violation.
Second, we inquire whether the violated right
was clearly established at the time that the
offending conduct occurred. The second,
“clearly established,” step itself encompasses
two questions: whether the contours of the
right, in general, were sufficiently clear, and
whether, under the specific facts of the case, a
reasonable defendant would have understood
that he was violating the right.
Ford v. Bender, 768 F.3d 15, 23 (1st Cir. 2014)
(emphasis added) (citations omitted). Finding a
“clearly established” right requires “identify[ing]
either controlling authority or a consensus of [10]
persuasive authority sufficient to put an officer on
notice that his conduct fell short of the constitutional
norm.” Conlogue v. Hamilton, 906 F.3d 150, 155 (1st
Cir. 2018) (citation omitted).

30

Captain Rivera, Officer Serrano, and Officer
Rosario seek summary judgment as to the § 1983
excessive force claims, claiming they are entitled to
qualified immunity. Officers Serrano and Rosario
also seek dismissal on the merits of the § 1983 causes
of action.
A. Excessive force — Use of Deadly Force
Plaintiffs have failed to put forth evidence that
any municipal police officer, except for Captain
Rivera, participated or was involved in the decision
to shoot Peguero. For this reason, the Court
construes Plaintiffs’ first excessive force claim—
based on the use of deadly force—as asserted only
against Captain Rivera, the Mayor in
her supervisory capacity, and the Commissioner in
his supervisory capacity.3 To the extent that
Plaintiffs also sought to assert this claim against the
remaining Police Defendants, those claims are
hereby DISMISSED WITH PREJUDICE.
As to this claim, Captain Rivera argues that
he should be immune from suit, pursuant to the
qualified immunity doctrine, for fatally shooting
Peguero. Docket No. 264-18 at 5-20. The Court
disagrees.
1. Clearly Established

The Court shall address the Mayor and the Commissioner’s
arguments on this issue below. Infra at III.
3

31

First, the “clearly established” prong is easily
satisfied. Excessive force claims are governed by the
Fourth Amendment’s “objective reasonableness”
standard. See Graham, 490 U.S. at 388; Whitfield v.
Melendez-Rivera, 431 F.3d 1, 7 (1st Cir. 2005). The
Fourth Amendment, for its part, protects citizens
[11] against unreasonable force, searches, and
seizures by the government. U.S. Const. amend. IV.
More specifically, “under clearly established law, the
use of deadly force is constitutional only if, at a
minimum, a suspect poses an immediate threat to
police officers or civilians.” Jarrett v. Town of
Yarmouth, 331 F.3d 140, 149 (1st Cir. 2003).
Accordingly, Peguero had a clearly established right
not to be subjected to deadly force unless he posed an
immediate threat to Captain Rivera, the Police
Defendants, or other bystanders in the area.
2. Constitutional Violation
Second, Plaintiff’s proffered version of the
facts, if true, makes out a violation of a
constitutionally protected right.” Morelli v. Webster,
552 F.3d 12, 18 (1st Cir. 2009). An excessive force
claim requires a showing that a defendant’s use of
force was objectively unreasonable considering the
totality of the circumstances and “without regard to
the [] underlying intent or motive.” Graham, 490
U.S. at 397; see Morelli, 552 F.3d at 23. To assess
reasonableness, courts must evaluate “the severity of
the crime at issue, whether the suspect poses an
immediate threat to the safety of the officers or
others, and whether he is actively resisting arrest or
attempting to evade arrest by flight.” Graham, 490
U.S. at 396; see Raiche v. Pietroski, 623 F.3d 30, 36

32

(1st Cir. 2010). This analysis requires a careful
balancing of the “nature and quality of the intrusion
on the individual’s Fourth Amendment interest”
against the countervailing governmental interests at
stake. Tennessee v. Garner, 471 U.S. 1, 8, 105 S. Ct.
1694, 85 L. Ed. 2d 1 (1985) (citations omitted).
Here, there is a genuine issue of material fact
as to whether Peguero posed an imminent threat at
the time he was shot and, by extension, whether
Peguero suffered a Fourth Amendment violation as a
result. Captain Rivera contends that, immediately
prior to shooting, Peguero was walking towards him
“aggressively, in a threatening fashion, swinging the
bat.” Docket No. 264-[12]18 at 14; see Docket Nos.
271-15 at 25-27; 271-19 at 3-4; 271-20 at 3. He also
maintains that, when Peguero was four or five feet
away from him, Peguero “lifted his bat as if to hit
[him].” Id. However, Plaintiffs have produced a
witness4who testified that she personally observed
that, at the time of the shooting, Peguero “came to a
stop at the street . . . [and] he remained standing
there and he had the bat in one hand, and he had the
other hand down. He just didn’t make any
movements. He just stood there.” Docket No. 273-6 at
Captain Rivera argues that the Court should not credit this
witness’s testimony because it is “blatantly contradicted by the
record” and it is “unreliable and questionable.” Docket No. 288
at 3-9. The Court rejects the first argument because the record
contains no objective evidence, such as a video, discrediting the
testimony. Instead, the record shows contradicting testimonies
from various witnesses, which creates a genuine issue of fact.
The Court also rejects the second argument since, at the
summary judgment stage, courts cannot make credibility
determinations or weigh the evidence, as these are jury
functions. See Anderson, 477 U.S. at 255.
4

33

44; see also id. at 49 (“Immediately after he came
out, he stood on the street . . . he did not move . . . he
was standing there with the bat down. After he was
told a couple of times to let go of the bat, he did not
let go of it, that’s when the [gunshot] occurred.”); id.
at 96 (stating that, prior to being shot, Peguero was
holding the bat “[o]n his right hand . . . pointing
down.”). If Plaintiffs’ version of the events is true,
Captain Rivera’s use of deadly force would constitute
excessive use of force in violation of the Fourth
Amendment. As such, the Court hereby DENIES
Captain Rivera’s defense of qualified immunity and,
accordingly, his Motion for Summary Judgment.
B. Excessive force — Arrest
Plaintiffs have similarly failed to put forth
evidence that Captain Rivera participated or was
involved in the decision to arrest and handcuff
Peguero. Consequently, the Court construes the
excessive force claim based on Peguero’s arrest as
asserted only against the Police Defendants. [13] To
the extent that Plaintiffs also sought to assert this
claim against Captain Rivera, it is hereby
DISMISSED WITH PREJUDICE.
Turning to Officers Serrano and Rosario, they
request dismissal of the § 1983 excessive force claims
asserted against them for arresting Peguero after he
was shot, on the grounds that Plaintiffs have failed
to present a cognizable claim and, in the alternative,
that they are entitled to qualified immunity. Docket
No. 268 at 19-24. The Court addresses the qualified
immunity defense first.
1. Constitutional Violation

34

At the outset, the qualified immunity analysis
evaluates whether the facts, taken in the light most
favorable to Plaintiffs, make out a constitutional
violation. Officers Serrano and Rosario argue that
they are entitled to qualified immunity for
handcuffing Peguero because (i) they had probable
cause to arrest him; and (ii) the right to be free from
handcuffs was not clearly established. Docket No.
268 at 12-14, 20-26. The Court disagrees, finding
that, at a minimum, there exists a genuine issue of
material fact precluding a grant of immunity.
First, the issue is not whether the officers
could arrest Peguero, but whether they used
excessive force while doing so. See Raiche, 623 F.3d
at 36 (“The Fourth Amendment is implicated where
an officer exceeds the bounds of reasonable force in
effecting an arrest or investigatory stop.”) (citation
omitted). Plaintiffs’ claim that the Police Defendants
used excessive force when they handcuffed Peguero
requires a showing that “the defendant[s’] actions in
handcuffing [him] were objectively unreasonable in
light of the circumstances and the facts known to the
officer[s] at the time.”; Calvi v. Knox Cty., 470 F.3d
422, 428 (1st Cir. 2006) (citations omitted).
As noted above, the Fourth Amendment’s
reasonableness analysis “requires careful attention
to the facts and circumstances of each particular
case, including the severity of the crime [14] at issue,
whether the suspect poses an immediate threat to
the safety of the officers or others, and whether he is
actively resisting arrest or attempting to evade
arrest by flight.” Graham, 490 U.S. at 396 (citing
Garner, 471 U.S. at 8-9). Here, the officers observed
Peguero committing several, non-minor crimes
including trespassing, property damages, and

35

disorderly conduct. However, Officers Serrano and
Rosario do not point to evidence showing that, after
being shot in the chest, Peguero continued posing a
safety threat; nor do they claim that Peguero was
resisting arrest or attempting to flee the scene. In
fact, the Court is skeptical that Defendants could
plausibly argue that a man lying on the street,
bleeding from a gunshot wound to the chest, posed a
safety or flight risk warranting handcuffing,
especially since he was surrounded by at least three
armed police officers. As such, the Court finds that,
at the very least, there exists a genuine issue of fact
as to whether the Police Defendants’ actions in
handcuffing Peguero were objectively reasonable
considering the surrounding circumstances.
2. Clearly Established
As to the second prong of the qualified immunity
defense, First Circuit case law on the right to be free
from excessive force by an arresting officer is clear
and extensive. See Morelli, 552 F.3d at 23. However,
“[t]he clearly established inquiry must be undertaken
in a more particularized, and hence more relevant,
sense,” analyzing “whether the law is clearly
established in light of the specific context of the case,
not as a broad general proposition.” Hunt v. Massi,
773 F.3d 361, 367-68 (1st Cir. 2014) (internal
quotation marks and citations omitted). Hence, the
Court must determine whether Peguero had a clearly
established right not to be handcuffed—or to be
handcuffed with his hands in front of him—in light of
his visible—and fatal—gunshot injury.[15]
While the First Circuit has not directly
addressed whether this constitutes a clearly
established right, “[i]n cases involving suspects who

36

display some objective indicia of injury or
disability . . . there appears to be general agreement
that officers must take note of the suspect’s
complaints and make some effort to accommodate the
claimed conditions or injuries, provided the
circumstances permit such an accommodation.”
Caron v. Hester, 2001 U.S. Dist. LEXIS 19382, 2001
WL 1568761, at *5 (D.N.H. Nov. 13, 2001) (emphasis
added); see, e.g., Aceto v. Kachajian, 240 F. Supp. 2d
121, 126 (D. Mass. 2003) (holding that it was “clearly
established that the police must take known injuries
into account in handcuffing a non- threatening
individual.”); Guite v. Wright, 147 F.3d 747, 750 (8th
Cir. 1998) (affirming the denial of summary
judgment after finding genuine issue of fact as to
excessive force claim where, despite visible shoulder
injury in sling, officer grabbed the plaintiff’s wrist,
pushed him, and held him up against a door); Walton
v. City of Southfield, 995 F.2d 1331, 1342 (6th Cir.
1993) (“An excessive use of force claim could be
premised on [arresting officer]’s handcuffing
[arrestee] if [the officer] knew that [the arrestee] had
an injured arm and if [the officer] believed that [the
arrestee] posed no threat to him.”); Eason v. AnokaHennepin E. Metro Narcotics &amp; Violent Crimes
Task Force, 2002 U.S. Dist. LEXIS 10645, 2002 WL
1303023, at *7 (D. Minn. June 6, 2002) (holding that
“[b]ecause there is a general consensus among courts
that police officers must factor a suspect’s alleged
preexisting injury into this calculus, at least when
there is an objective manifestation of that injury . . .
the Fourth Amendment right at issue was clearly
established at the time of the incident.”)(emphasis
added); Ferguson v. Hall, 33 F. Supp. 2d 608, 612 (E.
D. Mich. 1999) (denying qualified immunity on
excessive force claim, where plaintiff alleged that he

37

showed his “deformed” arm to the officer and
requested to be handcuffed in front of his body, but
the officer ignored his request); Pritzker v. City of
Hudson, 26 F.Supp. 2d. 433, 444 (N.D.N.Y. 1998)
(denying qualified immunity on excessive force claim
where [16] the arrestee advised the police officer of
his wrist injury, noting the “numerous cases . . .
holding that handcuffing a non-threatening
individual in the face of a known medical condition
violates clearly established constitutional rights.”).
The closest the First Circuit has come to
tackling this issue is Hunt, 773 F.3d 361, which held
that the police officer defendants were entitled to
qualified immunity because it was “aware of no
case . . . where a court held that ignoring an
uncooperative suspect’s claim of invisible injury
(such that handcuffing could be harmful) made
during the course of handcuffing constituted
excessive force.” Id. at 370 (quoting Beckles v. City of
N.Y., 492 Fed. Appx. 181, 183 (2d Cir. 2012))
(emphasis added). The First Circuit reasoned that
The officers knew of [the plaintiff’s serious and
recent criminal history, and they encountered
some admitted resistance [to arrest]. They had
also looked at the site of his recent surgery and
determined that no new injury or exacerbation
would result from the standard technique for
handcuffing. Nor was this determination
unreasonable since [the plaintiff]’s scar was on
his stomach. Most of the cases finding excessive
force incident to handcuffing involve injuries to
the shoulder or arm.

38

Id. (citation omitted). In so holding, the First Circuit
“easily” distinguished two cases relied upon by the
lower court—Howard v. Dickerson, 34 F.3d 978 (10th
Cir. 1994) and Eason, 2002 U.S. Dist. LEXIS 10645,
2002 WL 1303023—noting that these “involved much
more serious, and visible, injuries that would have
been exacerbated by the standard police procedure
for handcuffing.” Hunt, 773 F.3d at 368.
It is beyond dispute that the case before us
involves an extremely serious and patently obvious
injury—a gunshot wound in the chest inflicted by one
of the officers at the scene—that would likely be
exacerbated by handcuffing. Additionally, as
discussed above, supra at II.B.1, Defendants do not
allege that, after being shot, Peguero continued
posing a safety threat, was resisting arrest, or was
attempting to flee, such that handcuffing was
warranted despite his [17] obvious gunshot wound.
Accordingly, the Court finds that, at the time of
Peguero’s arrest, there was sufficient case law
showing that he had a clearly established right not to
be handcuffed behind his back when he had a visible
and fatal injury in his chest that would likely be
exacerbated by the handcuffing, and when he did not
pose a serious threat of danger or flight. See al—
Kidd, 563 U.S. at 741 (“We do not require a case
directly on point, but existing precedent must have
placed the statutory or constitutional question
beyond debate.”) (citations omitted).
3. Failure to State a Claim
As to Officers Serrano and Rosario’s dismissal
request for failure to state a claim, the triable issues
of fact precluding a grant of qualified immunity

39

similarly preclude summary judgment as to this
claim. To wit, the Parties have failed to put forth
sufficient evidence for the Court to determine
whether, as a matter of law, the Officers’ conduct
was objectively reasonable in light of the
circumstances. For this reason, the Court DENIES
Officers Serrano and Rosario’s Motion for Summary
Judgment as to Plaintiffs’ § 1983 claims for excessive
use of force during Peguero’s arrest.
C. Failure to Provide Medical treatment
Plaintiffs’ Complaint also alleges that
Defendants should be held liable for failing to
provide medical assistance to Peguero. Docket Nos.
68 at 6-10, 15-16, 17-18; 273 at 6, 18-21. Such a claim
is governed by the Due Process Clause of the
Fourteenth Amendment. City of Revere v. Mass.
Gen. Hosp., 463 U.S. 239, 244, 103 S. Ct. 2979, 77 L.
Ed. 2d 605 (1983) (“The Due Process Clause . . . does
require the responsible government or governmental
agency to provide medical care to persons . . . who
have been injured while being apprehended by the
police.”); see Docket No. 273 at 18. However, this
Court already dismissed Plaintiffs’ Fourteenth
Amendment claims on April 2017, Docket No. 112,
because it read Plaintiffs’ § 1983 claims as asserting
only an excessive force claim under the Fourth
Amendment, [18] Docket No. 110. Nowhere in
Plaintiffs’ Complaint do they allege a due process
violation or otherwise sufficiently plead a Fourteenth
Amendment claim. Thus, Plaintiffs’ claims for failure

40

to provide medical assistance were dismissed by this
Court.5
III. Supervisory Liability and Qualified Immunity
(Third Cause of Action)
A. Failure to Train Claim
The Supervisor Defendants argue that
Plaintiffs have failed to establish a cognizable claim
of supervisory liability and, in the alternative, that
they are entitled to qualified immunity. Docket Nos.
266; 267. Because, here, the second prong of the
qualified immunity defense is intertwined with the
merits of the supervisory liability claims, the Court
tackles both arguments jointly.6
For § 1983 supervisory liability claims, “the
‘clearly established’; prong of the qualified immunity
inquiry is satisfied when (1) the subordinate’s actions
violated a clearly established constitutional right,
and (2) it was clearly established that a supervisor
Moreover, “the injured detainee’s constitutional right is to
receive the needed medical treatment; how the [Municipality]
obtains such treatment is not a federal constitutional question.”
City of Revere, 463 U.S. at 245. Here, it is undisputed that
Defendants did obtain medical treatment for Peguero—thus
complying with their duty—by calling an ambulance
immediately after Captain Rivera shot Peguero. See Docket
Nos. 271-12; 271-21; 271-22.
6 While, generally, “[t]he inquiry into qualified immunity is
separate and distinct from the inquiry into the merits,” CamiloRobles v. Hoyos, 151 F.3d 1, 7 (1st Cir. 1998), “some aspect of
the merits may be inexorably intertwined with the issue of
qualified immunity,” Morales v. Ramirez, 906 F.2d 784, 787 (1st
Cir. 1990) (internal quotation marks and citation omitted).
5

41

would be liable for constitutional violations
perpetrated by his subordinates in that context.”
Camilo-Robles v. Hoyos, 151 F.3d 1, 6 (1st Cir. 1998)
(citations omitted). Here, both elements are satisfied.
As discussed above, supra at II.A.2 and II.B.1,
construing the facts in Plaintiffs’ favor, the officers’;
actions violated Peguero’s clearly established rights
under the Fourth Amendment; at a minimum,
genuine issues [19] of fact exist as to this issue.
Additionally, “it is equally well settled that a
deliberately indifferent police supervisor may be held
liable for the constitutional violations of his
subordinates.” Id. (citation omitted).
Turning to the other element of the defense,
the Court must determine “whether, in relation to a
clearly established right, a defendant’s conduct was
(or was not) reasonable.” Hoyos, 151 F.3d at 6.
Therefore, we now address the standard for
supervisory liability in the context of § 1983 claims.
While § 1983 does not provide or respondeat superior
liability, supervisors “may be liable on the basis of
their own acts or omissions.” Sanchez v. PereiraCastillo, 590 F.3d 31, 49 (1st Cir. 2009) (citation
omitted). This requires a showing that (i) “one of the
supervisor’s subordinates abridged the plaintiff’s
constitutional rights” and (ii) “the [supervisor]’s
action or inaction was affirmative[ly] link[ed] to that
behavior in the sense that it could be characterized
as supervisory encouragement, condonation, or
acquiescence or gross negligence amounting to
deliberate indifference.” Guadalupe-Báez v.
Pesquera, 819 F.3d 509, 514-15 (1st Cir. 2016)
(citations omitted).

42

Since the first prong is satisfied, as already stated,
the Court moves to the deliberate indifference
inquiry.
A plaintiff asserting deliberate indifference by
supervisors must show “(1) a grave risk of harm, (2)
the defendant’s actual or constructive knowledge of
that risk, and (3) his failure to take easily available
measures to address the risk.” Hoyos, 151 F.3d at 7
(citation omitted). While actual knowledge is not
required, a supervisor “may be liable for the
foreseeable consequences of such conduct if he would
have known of it but for his deliberate indifference or
willful blindness.” Id. (citation omitted). Causation is
also an important element of this analysis, requiring
“proof that [20] the supervisor’s conduct led
inexorably to the constitutional violation.”
Guadalupe-Báez, 819 F.3d at 515 (quoting Hegarty v.
Somerset Cty., 53 F.3d 1367, 1380 (1st Cir. 1995)).
Supervisory liability under § 1983 may be
premised on an inadequate training allegation,
provided that “the failure to train amounts to
deliberate indifference to the rights of persons with
whom the police come into contact.” City of Canton v.
Harris, 489 U.S. 378, 388, 109 S. Ct. 1197, 103 L. Ed.
2d 412 (1989). Thus, a plaintiff must show that the
supervisor “disregarded a known or obvious risk of
serious harm from its failure to develop a training
program “that meets adequate standards. Young v.
City of Providence, 404 F.3d 4, 28
(1st Cir. 2005).
Here, the Complaint alleges that the
Supervisor Defendants failed to develop or
implement policies and procedures regarding the use
of force, the provision of medical services to injured
individuals, and the reporting and review of

43

instances involving such use of force, among other
matters. Docket No. 68 at 15-16. Defendants have
shown that the Municipality did have policies and
procedures in place addressing these issues. See
Docket Nos. 266 at 12-13; 267 at 12-13. In response,
Plaintiffs concede the existence of a use of force
policy but argue that it was not adequately
implemented and that municipal police officers were
not adequately trained on this policy. Docket No. 273
at 14- 18.7
The Manual on Use and Handling of Firearms
(the “Manual”) includes a use of force policy,
establishing five different levels of permitted force
depending on the Officer’s perception of the subject’s
conduct. Docket No. 271-3 at 3-9. Three of the five
levels provide for the use of physical [21] and
defensive tactics such as impact with open hand,
escort positions, grabs, and pressure point
techniques, as well as using electrical (e.g., tasers) or
chemical (e.g., pepper spray) weapons. Id. However,
Defendants have failed to point to evidence showing
that, to ensure compliance with the Manual, the S.J.
Municipal Police specifically trained its officers on
either physical or defensive tactics. Nor have they

Regarding the supervisory liability claims, Plaintiffs’
Opposition only addresses the inadequate implementation of,
and deficient training on, the use of force policy. Docket No. 273
at 13-18. Because Plaintiffs have failed to point to any evidence
supporting the remaining allegations pertaining to the
Supervisor Defendants, the Court DISMISSES WITH
PREJUDICE all other supervisory liability claims. Therefore,
the only remaining supervisory liability claims are those
relating to the implementation of, and training on, the use of
force policy.
7

44

pointed to evidence showing that the S.J. Municipal
Police provided its officers with any chemical or
electrical weapons.
Meanwhile, Captain Rivera testified in his
deposition that he had never received training on the
use of tasers and that he had never been provided
with one. Docket No. 271-15 at 30. It seems
impossible for municipal police officers to abide by
the Manual if they are not provided with the
necessary resources to do so; that is, if they were not
given the tools and training needed to implement
levels two through four of the use of force policy.
Moreover, if Supervisor Defendants had
knowledge of the contents of the Manual, the
contents of the different training components, and
the equipment provided to municipal police officers, a
reasonable jury could find that they had constructive
knowledge that the use of force policy was
inadequately implemented but nevertheless failed to
take easily available measures, e.g., equipping
officers with chemical and electrical weapons.
Indeed, a jury could find that it was foreseeable that
failure to train or equip officers with chemical and
electrical weapons would result in an officer
prematurely escalating the use of force because he
lacked non-lethal tools to ensure his safety and that
of others.8
Indeed, Captain Rivera did just that. He started using verbal
commands pursuant to the first level of the use of force policy,
but he quickly escalated to the fifth level, deadly force. The
record does not show that Captain Rivera attempted to execute
levels two, three, or four of the use of force policy. Similarly, the
record does not show that, while Peguero walked towards him,
Captain Rivera attempted any non-lethal tactics including, for
example, brandishing his weapon, shooting near Peguero’s feet,
8

45

[22] Consequently, the Court finds that triable
issues of fact exist as to whether the Supervisor
Defendants should have known that failure to
provide chemical or electrical weapons created a risk
that municipal police officers would not be able to
abide by the different levels of force and, as a result,
prematurely respond with deadly force. Accordingly,
issues of fact as to the implementation of the use of
force policy and the
adequacy of training preclude both a grant of
qualified immunity and summary judgment as to
this claim. For this reason, the Court DENIES the
Supervisor Defendants’ Motions for Summary
Judgment on the failure to train claim.
B. Negligent Hiring Claim
Plaintiffs’ Complaint also alleges that the
Supervisor Defendants hired individuals who were
not qualified for their positions. Docket No. 68 at 14.
In response, the Supervisor Defendants aver that
Captain Rivera, Officer Serrano, and Officer Rosario
were hired before the Supervisor Defendants’
tenures. Docket Nos. 266 at 16; 267 at 17. Plaintiffs
did not oppose this argument, and have simply failed
to show that the Supervisor Defendants participated
in the hiring of the Police Defendants or that the
Supervisor Defendants were otherwise negligent in
the hiring of any municipal police officer.
Accordingly, claims premised on the hiring practices
or shooting Peguero in the arm or leg. Had Captain Rivera been
equipped with a taser, or even pepper spray, it seems probable
that the officers would have been able to subdue Peguero
without inflicting serious injury.

46

at the S.J. Municipal Police are hereby DISMISSED
WITH PREJUDICE.
IV. Municipal Liability (Third Cause of Action)
The Municipality moves for dismissal of the
claims asserted against it, arguing that Plaintiffs
have failed to establish the existence of an official
unconstitutional policy or custom. Docket No. 268 at
5-10. The Court agrees.
[23] In Monell v. Dep’t of Soc. Servs. of City of
N.Y, the Supreme Court held that municipalities
could be held liable for violations of § 1983, but not
on the basis of respondeat superior. 436 U.S. 658,
691, 98 S. Ct. 2018, 56 L. Ed. 2d 611 (1978). Rather,
municipal liability must be based on the enforcement
of an “official policy” that serves as the “moving force
of the constitutional violation.” Id. at 694-95; Haley
v. City of Bos., 657 F.3d 39, 51 (1st Cir. 2011) (“[A]
plaintiff who brings a section 1983 action against a
municipality bears the burden of showing that,
through its deliberate conduct, the municipality was
the moving force behind the injury alleged.”)
(internal quotation marks and citation omitted).
Therefore, “municipal liability under § 1983 attaches
where—and only where—a deliberate choice to follow
a course of action is made from among various
alternatives by the official or officials responsible for
establishing final policy with respect to the subject
matter in question.” Pembaur v. City of Cincinnati,
475 U.S. 469, 483, 106 S. Ct. 1292, 89 L. Ed. 2d 452
(1986) (citation omitted).
Under certain limited circumstances, a
municipality’s “decision not to train certain
employees about their legal duty to avoid violating
citizens” rights may rise to the level of an official

47

government policy for purposes of § 1983.” Connick v.
Thompson, 563 U.S. 51, 61, 131 S. Ct. 1350, 179 L.
Ed. 2d 417 (2011). Still, municipal liability “is at its
most tenuous where a claim turns on a failure to
train.” Id. In these cases, § 1983 liability attaches
only when the municipality’s failure to train
“amounts to deliberate indifference to the rights of
persons with whom the police come into contact.”
City of Canton, 489 U.S. at 388. Only then can
inadequate training be considered an official “policy
or custom that is actionable under § 1983.” Connick,
563 U.S. at 61 (internal quotation marks and citation
omitted).
To meet this deliberate indifference standard,
a plaintiff must show that “city policymakers are on
actual or constructive notice that a particular
omission in their training program causes city
employees to violate citizens’ constitutional rights,”
yet choose to retain the [24] training program.
Connick, 563 U.S. at 61 (citation omitted). Notably,
the Supreme Court has held that “[a] pattern of
similar constitutional violations by untrained
employees is “ordinarily necessary” to demonstrate
deliberate indifference for purposes of failure to
train.” Id. at 62 (citation omitted). This proves fatal
to Plaintiffs’ municipal liability claims.
Here, Plaintiffs have presented no evidence of
a pattern of similar constitutional violations. While
the Supreme Court did not “foreclose the possibility,
however rare, that the unconstitutional consequences
of failing to train could be so patently obvious that a
city could be liable under § 1983 without proof of a
pre- existing pattern of violations,” id. at 64
(emphasis added), such is simply not the case here.
The Court cannot find, based on the record, that it

48

was patently obvious that failing to train on the use
of chemical and electrical weapons would result in
constitutional violations. As such, the Court hereby
GRANTS the Municipality’s Motion for Summary
Judgment and DISMISSES WITH PREJUDICE the
corresponding claims.
V. State Law Claims
Finally, Plaintiffs assert several state law
claims against the Police Defendants, including
assault and battery as well as illegal arrest. Docket
No. 68 at 16-20. Officers Serrano and Rosario request
dismissal of the state law claims asserted against
them. Docket No. 268 at 24-25. The Court addresses
each in turn.
A. Assault and Battery (Fourth and Fifth Cause of
Action)
Officers Serrano and Rosario move to dismiss
the assault and battery claims, arguing that “[t]he
undisputed facts show that they did not participate
in any way in the alleged battery and even less in the
death of Mr. Peguero.” Docket No. 268 at 24. The
Court agrees. Plaintiffs have not disputed this
characterization of the facts and have failed to put
forth evidence that any municipal [25] officer, except
for Captain Rivera, participated or was involved in
the decision to use deadly force against Peguero. As a
result, the assault and battery claims against the
Police Defendants, including Officers Serrano and
Rosario, are hereby DISMISSED WITH
PREJUDICE.
B. Illegal Arrest (Sixth Cause of Action)

49

Similarly, Officers Serrano and Rosario move
to dismiss the illegal arrest claim, positing that they
had probable cause to arrest Peguero. Docket No. 268
at 25. The Court again agrees.
Under Puerto Rico law, “[a] claim for false
arrest arises . . . when [a] person, whether or not a
law enforcement officer, may by himself or through
another one unlawfully detain or cause the unlawful
detention of another person. In both cases, said
person would be liable for damages if said action is
tortious or negligent.” Díaz Nieves v. United States,
858 F.3d 678, 684 (1st Cir. 2017) (quoting Ayala v.
San Juan Racing Corp., 12 P.R. Offic. Trans. 1012,
1021, 112 D.P.R. 804 (1982)) (internal quotation
marks omitted). Such a claim focuses on “whether
the arresting officers lacked reasonable cause for
believing that [the suspect] committed a felony.”
Abreu-Guzman v. Ford, 241 F.3d 69, 75 (1st Cir.
2001) (internal quotation marks and citation
omitted).
Here, it is undisputed that the Police
Defendants arrived at the scene in response to two
911 calls about an aggressive person in the area who
was shouting, using foul language, and potentially
posing a threat to the safety of others. It is also
undisputed that, upon arrival, the Police Defendants
saw that Peguero had jumped a fence to gain
entrance to a private residence. The Police
Defendants also personally observed Peguero
shouting, uttering insults, and hitting the windows
and fence of a private residence with a bat, causing
property damage. As such, the record demonstrates
that the Police Defendants had reasonable cause for
believing that Peguero [26] had committed several

50

criminal offenses, such a trespassing, damages,9and
disorderly conduct. Accordingly, Plaintiffs’ false
arrest claims are hereby DISMISSED WITH
PREJUDICE.
CONCLUSION
For the reasons stated above, the Court
GRANTS IN PART and DENIES IN PART
Defendants’ Motions for Summary Judgment.
Specifically, the Court hereby DENIES Captain
Rivera’s Motion for Summary Judgment, Docket No.
264; GRANTS IN PART and DENIES IN PART the
Mayor’s Motion for Summary Judgment, Docket No.
266; GRANTS IN PART and DENIES IN PART the
Commissioner’s Motion for Summary Judgment,
Docket No. 267; GRANTS the Municipality’s Motion
for Summary Judgment, Docket No. 268; and
GRANTS IN PART and DENIES IN PART Officers
Serrano and Rosario’s Motion for Summary
Judgment, id.
As a result, the Court hereby DISMISSES
WITH PREJUDICE the following claims: (i) the
excessive force claims against the Police Defendants
based on the use of deadly force; (ii) the excessive
force claim against Captain Rivera based on the
arrest; (iii) all claims premised on the hiring
practices of the S.J. Municipal Police; (iv) all claims
against the Municipality; (v) the assault and battery
Under Puerto Rico law, the crime of aggravated damages is a
felony. See P.R. Laws Ann. tit. 33, § 4836(b) (“Any person who
commits the crime of damages set forth in § 4835 of this title
shall be guilty of a fourth degree felony if any of the following
circumstances concur . . . when the damage caused is assessed
in one thousand dollars ($1,000) or more.”).
9

51

claims against the Police Defendants; and (vi) the
false arrest claim.
The only surviving claims are the following: (i)
the excessive force claim against Captain Rivera
based on the use of deadly force; (ii) the excessive
force claim against the Police Defendants based on
the arrest; (iii) the supervisory liability based on
training and implementation of the use [27] of force
policy; and (iv) the assault and battery claims
against Captain Rivera. Partial Judgment shall be
entered accordingly.
IT IS SO ORDERED.
In San Juan, Puerto Rico, this 22nd day of
February, 2019.
[Original numbering in brackets]
/s/ Jay A. Garcia-Gregory
JAY A. GARCIA-GREGORY
United States District Judge
PARTIAL JUDGMENT
Pursuant to this Court’s Opinion and Order
issued today, Docket No. 302, Judgment is hereby
entered DISMISSING WITH PREJUDICE the
following claims:
1. The § 1983 use of deadly force claims asserted
against Jermary Serrano, Edwin Rosario, Luis D.
Vasquez Crespo, Luis A. Burgos Nieves, Gilberto Y.
Febus Perez, and John Does 1-100;
2. The § 1983 use of excessive force during an arrest
claim asserted against Ismael Rivera Gonzalez;

52

3. All § 1983 claims premised on the hiring practices
of the San Juan Municipal Police;
4. All claims asserted against the Municipality of San
Juan;
5. The state law assault and battery claims asserted
against Jermary Serrano, Edwin Rosario, Luis D.
Vasquez Crespo, Luis A. Burgos Nieves, Gilberto Y.
Febus Perez, and John Does 1-100; And
6. The state law false arrest claim.
IT IS SO ORDERED.
In San Juan, Puerto Rico this Friday, February 22,
2019.
/s/ Jay A. Garcia-Gregory
JAY A. GARCIA-GREGORY
U.S. DISTRICT JUDGE

53

